                                              EMPLOYMENT AND
                                              TRAINING ADMINISTRATION

Office of Inspector General—Office of Audit




                                              SAN DIEGO JOB CORPS CENTER: STUDENT
                                              ATTENDANCE AND TRAINING DATA
                                              OVERSTATED




                                                                        Date Issued: September 30, 2005
                                                                        Report Number: 09-05-004-03-370
Department of Labor
Office of Inspector General                       September 2005
Office of Audit
                                                  SAN DIEGO JOB CORPS CENTER:
                                                  STUDENT ATTENDANCE AND TRAINING
                                                  DATA OVERSTATED
BRIEFLY…                                          WHAT OIG FOUND
Highlights of Report Number: 09-05-004-03-
                                                  We found the substance of the allegation was
370, a report to Emily Stover DeRocco,
                                                  valid. San Diego staff obtained undated
Assistant Secretary for Employment and
                                                  resignation forms from students so that they
Training.
                                                  could make up a separation date later. In fact,
                                                  the practice of prolonging student stays after
WHY READ THE REPORT                               separation was widespread, and included
                                                  students who completed a vocation. We found
This report discusses why student attendance      that San Diego extended the stay of about 50
and training data reported for the San Diego      percent of the 717 students who left the center
Job Corps Center (San Diego) were not             in program year 2003. As a result, the OBS was
reliable and contains recommendations to          overstated and liquidated damages of a
improve that reliability.                         maximum of $618,369 could be due to Job
                                                  Corps.
WHY OIG DID THE AUDIT                             We also found that two of the four selected
                                                  performance measures we tested – the 60-Day
The Office of Inspector General conducted an      Commitment Rate and GED/ High School
audit at San Diego to determine the merits of a   Diploma Attainment Rate – were reliable. The
hotline complaint alleging that San Diego         other two-- OBS (noted above) and Vocational
management ordered staff to tell students to      Completion Rate, were not.
leave their resignation forms undated. The
complainant alleged that this allowed San         The number of vocational completions was
Diego personnel to manipulate student             overstated by over 50 percent. Training records
resignation dates to inflate student              did not support that students had completed all
attendance, as reflected on the On-Board          the vocation’s tasks with an appropriate level of
Strength (OBS) performance measure. This          proficiency.
audit was also one in a series of planned
audits to assess Job Corps’ processes for         WHAT OIG RECOMMENDED
ensuring the reliability of performance
outcomes reported by center operators.            We recommended that the Assistant Secretary
                                                  ensure that Job Corps management takes
READ THE FULL REPORT                              corrective action. Our key recommendations
                                                  were to strengthen controls at San Diego and
To view the report, including the scope,          increase monitoring over San Diego to ensure
methodology, and full agency response, go to:     compliance with Job Corps’ requirements for the
http://www.oig.dol.gov/public/reports/oa/2005/    student accountability and vocational
09-05-004-03-370.pdf                              completions.

                                                  ETA agreed with our recommendations. Job
                                                  Corps had already begun taking action to
                                                  ensure performance data reliability at all its
                                                  centers. Further, Job Corps obtained a
                                                  Corrective Action Plan specifically for San
                                                  Diego and corrective actions have begun.
                                                                        San Diego Job Corps Center: Student
                                                                     Attendance and Training Data Overstated




Table of Contents
                                                                                                                  PAGE

EXECUTIVE SUMMARY ........................................................................................... 3


ASSISTANT INSPECTOR GENERAL’S REPORT ................................................... 9

  1. Objective 1 – The allegation that San Diego personnel manipulated
                   student resignation dates is valid. ....................................... 10

  2. Objective 2 – Two of the four selected performance measures
                    tested are reliable. ................................................................. 19


EXHIBITS ................................................................................................................ 25

  A. Reported Performance Outcomes Impact Reimbursable Expenses,
     Incentive and Bonus Payments, and Job Corps Supervision ................... 27

  B. OIG Calculations for CSDC Maximum Potential Refund to the
     Government-Liquidated Damages................................................................ 29

  C. Extended Student Resignations................................................................... 31

APPENDICES.......................................................................................................... 33

  A. Background .................................................................................................... 35

  B. Objectives, Scope, Methodology, and Criteria............................................. 37

  C. Acronyms and Abbreviations........................................................................ 41

  D. Agency Response to Draft Report ................................................................ 43




U.S. Department of Labor—Office of Inspector General                                                                      1
Report Number: 09-05-004-03-370
                                                     San Diego Job Corps Center: Student
                                                  Attendance and Training Data Overstated




Executive Summary
We conducted a performance audit at the San Diego Job Corps Center (San Diego),
operated by Career Systems Development Corporation (CSDC). San Diego is one
of nine centers operated by CSDC.

We initiated the audit to determine the merits of a hotline complaint dated March 28,
2003. The complainant alleged that San Diego management had ordered staff to tell
students to leave their resignation forms undated. The complainant alleged that this
allowed San Diego personnel to manipulate student resignation dates to inflate San
Diego’s reported student attendance as reflected in the student On-Board Strength
(OBS) performance measure.

This audit was also one in a series of planned audits to assess the reliability of
performance measures reported by Job Corps center operators. As such, we
performed additional tests of selected performance data unrelated to the complaint.

Job Corps uses various performance and outcome measures, including OBS, as
part of a comprehensive management system to assess program effectiveness. The
purposes of the management system are threefold: (1) to meet Federal and
legislative accountability requirements for the Job Corps system; (2) to assess
accomplishments in implementing program priorities and serving students
effectively; and (3) to have a management tool that provides useful and relevant
feedback on performance, while encouraging continuous program improvement.
Job Corps uses OBS to measure a center’s capacity utilization and to help monitor
program costs.

Our audit objectives were to answer the following specific questions:

   1. Is the allegation that San Diego personnel manipulated student resignation
      dates valid?

   2. Are the following four selected performance measures reliable?

          a. Student On-Board Strength
          b. 60-day Commitment Rate
          c. General Education Development (GED)/High School Diploma
             Attainment Rate
          d. Vocational Completion Rate




U.S. Department of Labor—Office of Inspector General                                   3
Report Number: 09-05-004-03-370
San Diego Job Corps Center: Student
Attendance and Training Data Overstated

Results

Allegation Was Valid

We found the substance of the allegation was valid. Our work at San Diego showed
that San Diego staff obtained undated resignation forms/letters from students so that
San Diego staff could make up a date later. The separated students would be
placed on various types of leave or be reported as Present for Duty Off Center
(PDOF) as a way to delay reporting the student had separated from San Diego.

Furthermore, the practice of actually prolonging student stays was widespread. It
was not isolated to students who resigned, but also included students who
completed a vocation. In fact, we found that San Diego extended the stay of
approximately 50 percent (between 328 and 354) of the 717 students who left San
Diego in PY 2003.

This violates Job Corps’ Policy and Requirements Handbook (PRH). In addition, the
Job Corps contract with CSDC contains a clause specifying dollar amounts
(liquidated damages) that CSDC must pay if the PRH regarding student
accountability is violated.

This occurred because neither San Diego nor CSDC had established adequate
controls to monitor reporting of student separations, leave and PDOF. Specifically,
San Diego management had neither established responsibility nor given anyone the
authority for ensuring Job Corps requirements were followed and terminations were
accurately recorded. In addition, student separations were not included in CSDC
annual reviews. As a result, San Diego’s OBS was overstated and (1) liquidated
damages of as much as $618,369 could be due, and (2) Job Corps management
has made decisions based on incorrect data. In addition, students continue to earn
their pay while on inappropriately extended stays. There is also a question of Job
Corps’ liability for student actions while listed as PDOF. Furthermore, this condition
may exist at other CSDC operated centers.

Two of the Four Selected Performance Measures Were Reliable

Two of the four selected performance measures -- the 60-Day Commitment Rate
and GED/ High School Diploma Attainment Rate -- we tested were reliable. The
other two performance measures, OBS (noted above) and Vocational Completion
Rate, were not.

Specifically, 26 of 48 of the Training Achievement Records (TARs) we tested did not
support the reported vocational completion. Students had not completed all the
vocation’s tasks with an appropriate level of proficiency. This occurred because San
Diego personnel were not properly trained in Job Corps requirements for vocational
completions. As a result, San Diego appeared to be more successful than it was.


4                                    U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-004-03-370
                                                         San Diego Job Corps Center: Student
                                                      Attendance and Training Data Overstated

San Diego may not be adequately training students, and this could adversely affect
students’ ability to obtain and retain employment.

Nationwide Action by Job Corps

In response to two earlier OIG reports,1 Job Corps has already begun taking action
to ensure performance data reliability at all centers. To improve system-wide data
validation Job Corps has:

    •   initiated updates to the Program Assessment Guide (PAG), which is the
        technical assistance guide for regional office reviews of centers,

    •   required each regional office to conduct mandatory audits of student records
        concurrent with annual center quality assessments,

    •   convened a national performance data reliability workgroup to make
        recommendations for processes to ensure system-wide integrity of
        performance data,

    •   conducted pilot reviews at selected centers to evaluate performance data
        sampling methodologies recommended by the workgroup, and

    •   issued clarification to the Job Corps community regarding use of AWOL
        status and parameters for reporting present for duty off-center.

Recommendations

We recommend that the Assistant Secretary for Employment and Training ensure
that Job Corps management takes appropriate action to address the manipulation of
student attendance records and unsupported vocational completions at San Diego.
These actions should include requiring that Job Corps management:

    1. Monitor San Diego to ensure center management establishes central
       authority and responsibility for center compliance with Job Corps
       requirements for student accountability and separations.

    2. Sample San Diego student attendance records and supporting documentation
       from at least PY 2002 to the present to determine how long the practice of
       inflating OBS has taken place and compute liquidated damages.




1
 Interim Report – Job Corps Performance Measurement Outcomes, Report No. 09-04-004-03-370,
dated September 30, 2004 and Kittrell Job Corps Center: Manipulation of Student Attendance and
Training Records, Report No. 09-05-001-03-370, dated March 30, 2005.

U.S. Department of Labor—Office of Inspector General                                             5
Report Number: 09-05-004-03-370
San Diego Job Corps Center: Student
Attendance and Training Data Overstated

    3. Monitor CSDC to ensure student separation reporting and procedures are
       included in their annual review of all CSDC centers.

    4. Monitor San Diego to ensure center management establishes controls over
       TARs to ensure the TARs are complete with scores “proficient” or higher
       before claiming vocational completion credit.

    5. Review vocational completions reported by San Diego from at least PY 2003
       to the present to correct the Vocational Completion Rate.

    6. Monitor all CSDC centers to ensure center personnel are adequately trained
       on the TAR requirements.

Agency Response

ETA generally concurred with our findings and recommendations. Job Corps had
already obtained from the contractor a comprehensive Corrective Action Plan (CAP)
to address the discrepancies and deficiencies identified by the OIG.

The National Office of Job Corps agreed to implement the recommendations made
by the OIG regarding center management, attendance records and supporting
documentation, vocational completions, and staff training in administrative record-
keeping.

ETA stated that while CSDC, the operator of San Diego, contended that errors in
reporting and documentation found during the OIG investigation were not the result
of wrongful intent, CSDC acknowledged that there was a need for a stronger system
of monitoring the center’s data integrity. Through their CAP they have established
an internal Auditing Team, updated directives, made provisions for staff training, and
eliminated such practices as obtaining undated resignation letters, etc.

Job Corps agreed to conduct, to the extent possible with the records available at the
center, a thorough analysis of San Diego’s student records in terms of potentially-
inflated OBS, improper student records/documentation, etc., in order for Job Corps
to determine the correct amount of overpayment to be refunded. Job Corps agreed
to take all steps necessary to regain the actual overpayments and implement
improved data validation procedures for centers and regional reviewers that will
benefit not only San Diego, but all Job Corps centers across the country.




6                                    U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-004-03-370
                                                         San Diego Job Corps Center: Student
                                                      Attendance and Training Data Overstated

OIG Conclusion

As noted earlier, in response to two earlier OIG reports,2 Job Corps had already
begun taking action to ensure performance data reliability at all centers. This, in
addition to the specific corrective actions planned for San Diego, will adequately
resolve our recommendations. Also, due to the corrective actions already
implemented, recommendations 4 and 6 are also closed.




2
 Interim Report – Job Corps Performance Measurement Outcomes, Report No. 09-04-004-03-370,
dated September 30, 2004 and Kittrell Job Corps Center: Manipulation of Student Attendance and
Training Records, Report No. 09-05-001-03-370, dated March 30, 2005.

U.S. Department of Labor—Office of Inspector General                                             7
Report Number: 09-05-004-03-370
San Diego Job Corps Center: Student
Attendance and Training Data Overstated




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




8                                    U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-004-03-370
                                                       San Diego Job Corps Center: Student
                                                    Attendance and Training Data Overstated

U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC 20210




                       Assistant Inspector General’s Report

Ms. Emily Stover DeRocco
Assistant Secretary for Employment and Training
U. S. Department of Labor
200 Constitution Ave., N.W.
Washington, D.C. 20210

We conducted an audit at the San Diego Job Corps Center (San Diego), operated
by Career Systems Development Corporation (CSDC). We initiated the audit to
determine the merits of a hotline complaint dated March 28, 2003. The complainant
alleged that San Diego management had ordered staff to tell students to leave their
resignation forms undated. The complainant alleged that this action then allowed
San Diego personnel to manipulate student resignation dates to inflate San Diego’s
reported student attendance as reflected in the Student On-Board Strength (OBS)
performance measure.

This audit was also one in a series of planned audits to assess Job Corps’ process
for ensuring the reliability of performance outcomes reported by center operators.
As such, we performed additional tests of performance data unrelated to the
complaint.

We focused on the following two audit objectives:

1. Is the allegation that San Diego personnel manipulated student resignation dates
   valid?

2. Are the following four selected performance measures reliable?

     a.   Student On-Board Strength
     b.   60-day Commitment Rate
     c.   GED/High School Diploma Attainment Rate
     d.   Vocational Completion Rate

We conducted the audit in accordance with Government Auditing Standards for
performance audits. Our audit scope, methodology, and criteria are detailed in
Appendix B.




U.S. Department of Labor—Office of Inspector General                                     9
Report Number: 09-05-004-03-370
San Diego Job Corps Center: Student
Attendance and Training Data Overstated

Objective 1 – Is the allegation that San Diego personnel manipulated student
              resignation dates valid?

Results and Finding

We confirmed that the allegation was valid. In fact, the manipulation of student
separation dates was widespread. It was not isolated to students who resigned.
The OIG received a hotline complaint on March 28, 2003, concerning San Diego.
The complainant alleged that San Diego management had ordered staff to tell
students to leave their resignations undated. The complainant alleged that this
action then allowed San Diego personnel to manipulate student resignation dates to
inflate San Diego’s reported student attendance as reflected in the Student On-
Board Strength (OBS) performance measure.

We confirmed that the allegation’s substance was valid. San Diego personnel
manipulated student separation dates. In fact, we are 95 percent confident that
San Diego improperly extended the stays of 328 to 354 of the 717 students who left
San Diego in PY 2003. (See page 11 for more detail.) Only a few students actually
resigned; most graduated with a completed vocation.

This occurred because neither San Diego nor CSDC had management controls in
place to monitor use of student leave, PDOF, and separation dates. Student
attendance at San Diego was improperly inflated and San Diego appeared to be
operating at a higher capacity than it really was. We judgmentally selected 3 days in
PY 2003. We found that the OBS was overstated, on the average, by 39 students
per day. (See page 14 for more detail.) This distorted the data Job Corps
management uses in its decision-making and may have prevented additional
students from joining Job Corps. In addition, using amounts from San Diego’s
contract with Job Corps, we estimate San Diego could owe as much as $618,369 to
Job Corps for liquidated damages.

Student Attendance or On-Board Strength Performance Measure

Student attendance at a Job Corps center is measured by OBS. OBS measures the
ability of a center to operate at or near its capacity.3 Each center is expected to
maintain an OBS of 100 percent of capacity. In fact, Job Corps uses OBS to monitor
contractor expenses and make budget decisions. For example, if OBS falls below
98 percent, Job Corps sets in motion various budget decisions affecting the center
operator. With program emphasis on serving as many disadvantaged youth as
possible, it is highly desirable to operate with as high an OBS as possible.



3
 OBS is a count of the number of students actively attending a particular center. This measure
depicts quarterly cumulative results for each program year.


10                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 09-05-004-03-370
                                                           San Diego Job Corps Center: Student
                                                        Attendance and Training Data Overstated

Separation and Leave Requirements

In order to make the OBS a meaningful measure, Job Corps requires accurate
accounting and reporting of student attendance, leave, and separation. Specifically,
Job Corps’ Policy and Requirements Handbook (PRH), Chapter 6 sets forth the
accountability requirements and describes the allowable conditions for students to
be away from centers. The following chart shows the major categories of student
accountability and the conditions for each category.

                          Categories of Student Accountability
        Student Status                Uses                     Limitations
       Present for Duty    Normal training            None
       on Center
       Present for Duty      Authorized activities off           2 weeks per year4
       Off Center            center
       On Pass               Authorized overnight                None
                             absences
       Absent Without        Fails to report to center           6 consecutive training days
       Leave (AWOL)                                              or 12 total training days in 6
                                                                 months requires separation
       Unpaid                Absence due to family               30 training days per year
       Administrative        compassion or hardship or
       Leave                 other specified reason
       Paid                  Absence for                         10 training days per 6
       Administrative        medical treatment or other          month period
       Leave                 authorized activity

In addition, PRH Chapter 6.1 R2a, states: “Leave shall not be granted as a means
of artificially postponing a student’s separation date.”

Hotline Complainant and San Diego Employees Disclosed Improper Leave Used to
Inflate On-Board Strength

The hotline complainant alleged improper recording of student separation dates.
According to the complainant, when students resigned from the program, the
students were instructed to submit undated resignation letters so that San Diego
could record the student separations at a later date. The complainant further alleged
that after the student resigned and left San Diego, staff would put the student on
various types of leave to keep them in the counted OBS.

The allegation was valid. San Diego employees told us they obtained undated
resignation letters/forms from students so that San Diego staff could make up a date
later. The separated students would be placed on various types of leave or be
4
 The PRH does not include a specific time period, but requires the Center to develop a policy that is
approved by Job Corps. The Center’s policy was 2 weeks and was approved by Job Corps beginning
October 1, 2003. We allowed the 2 weeks in our calculations.

U.S. Department of Labor—Office of Inspector General                                              11
Report Number: 09-05-004-03-370
San Diego Job Corps Center: Student
Attendance and Training Data Overstated

reported as Present for Duty Off Center (PDOF) as a way to delay reporting the
student had separated from San Diego. San Diego employees further explained
that, in some cases, student resignations were not recorded immediately in order to
give the students time to reconsider their resignation. According to Job Corps
requirements, once a student officially resigns, the student cannot reapply for a year.
Therefore, San Diego staff wanted to wait as long as possible to record the
resignation. However, Job Corps requirements allow a maximum 6 days absence
before automatic separation.

We evaluated the validity of the complaint as part of our testing of OBS. We
statistically sampled 105 students who separated from the program in PY 2003 by
any means.5 This OBS sample included 16 students who had submitted resignation
letters. We found all 16 letters to be undated. San Diego reported these students
had stayed on-center between 3 and 64 days after they had left. See Exhibit C for
details on the 16 sampled students who resigned, their last day physically at San
Diego, and the separation date San Diego recorded.

To illustrate, a student resigned from Job Corps after obtaining a job. The student’s
resignation letter was undated. To determine the student’s last day at the center we
examined the student’s file and found that the student’s counselor initiated a leave
form for unpaid administrative leave on January 6, 2004. However, the counselor
notes for that day state the student had a job and would no longer be attending Job
Corps. We verified the student’s last day at the center was January 6, 2004. His
leave began on January 7, 2004, and continued until San Diego separated the
student on February 3, 2004.

Artificially Extending Student Stays Widespread

By interviewing San Diego employees and reviewing student files, we found that the
practice of manipulating student separation dates went beyond student resignations.
The practice extended to other types of separations, as well. For PY 2003, San
Diego reported 717 students left San Diego. Based on our testing, we estimate, with
95 percent confidence, that between 328 and 354 of these students were counted in
OBS after they left San Diego. This consisted of 165 students with excessive PDOF
and 163 to 189 students with inappropriate leave, as shown in the following chart.




5
 In PY 2003, San Diego reported 717 students left the program. See page 12 for more details on the
sample.

12                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 09-05-004-03-370
                                                     San Diego Job Corps Center: Student
                                                  Attendance and Training Data Overstated



                            San Diego PY 2003 Separations
                                           (N=717)




                                                      Actual
                                                       165
                                                     Excessive
                                                      PDOF
                                  Projected
                                  363 - 389
                                No Exceptions
                                  Detected             Projected
                                                       163 - 189
                                                     Inappropriate
                                                        Leave




San Diego employees told us that students who left San Diego would continue to be
placed on leave until a “separation slot” was available that would not adversely affect
San Diego’s OBS. The separation slots were controlled by San Diego’s Career
Transition Services Department (CTS). Every Thursday, the CTS had a meeting
with managers, and they decided which students separated and the separation
dates. San Diego employees told us that the number of outgoing students had to
match or be less than the number of incoming students. Otherwise, San Diego
could not stay above the targeted OBS level of 98 percent. Generally, San Diego
allowed for 15 students to leave each week. However, students did not always
leave San Diego as center employees had planned and balancing the OBS was
deemed necessary to maintain San Diego’s performance.

A review of files confirmed this practice. To determine the extent to which San
Diego inappropriately used leave or PDOF to keep students in the OBS, we
performed two tests: one for students with leave immediately before separation and
one for students who were reported as PDOF.




U.S. Department of Labor—Office of Inspector General                                  13
Report Number: 09-05-004-03-370
San Diego Job Corps Center: Student
Attendance and Training Data Overstated

Inappropriate Use of Leave

For the first test, we identified a PY 2003 separated student population of 717
students. We then electronically analyzed all student leave recorded in San Diego’s
Center Information System (CIS) for these students. From the 717 student
separations during PY 2003, we identified 225 students that had 7 or more days of
consecutive leave immediately before separation. (We used 7 days because the
PRH allows 6 consecutive days of AWOL before separating a student.) From the
225, we statistically selected a random sample of 105 students to determine if the
students were improperly included in OBS.

We found 82 of the 105 students (78 percent) had inappropriate leave before
separation that improperly extended their recorded stay at San Diego. These 82
students had a combined total of 1,984 inappropriate leave days. We project with 95
percent confidence that between 163 and 189 students had inappropriate leave to
extend their stay.

Inappropriate Use of PDOF

Our second test focused on students who were on PDOF. PDOF is a designation
for students who are not on leave but are in a duty status away from a center.
According to the PRH, PDOF is to be used only for authorized activities off center,
including:

     •   Competitions or awards.
     •   Work-based learning.
     •   Vocational skills training projects off center.
     •   Recruiting drives.
     •   Escort duty.
     •   Out-of-town job interviews, apprenticeship jobs, or Armed Forces processing.

During our initial testing, we found PDOF was not included in San Diego’s electronic
CIS for the first 9 months of PY 2003. This was because San Diego’s information
system was being upgraded at that time. Therefore, none of the students who were
on PDOF before separation in the first 9 months of PY 2003 were included in our
electronic analysis discussed earlier. Therefore, to obtain a complete universe, we
manually identified all students placed on PDOF during this time period from San
Diego’s attendance records. We identified an additional 246 students and tested
100 percent of these students for compliance with PRH and San Diego
requirements.6 We found 165 of the 246 students had improperly had their stay at
San Diego extended by inappropriately using PDOF for a total of 4,796 days.



6
 The PRH does not include a specific time period, but requires the Center to develop a policy that is
approved by Job Corps. The Center’s policy was 2 weeks and was approved by Job Corps beginning
October 1, 2003. We allowed the 2 weeks in our calculations.

14                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 09-05-004-03-370
                                                           San Diego Job Corps Center: Student
                                                        Attendance and Training Data Overstated

In one example, a student came to San Diego for training, but resigned after 3 days.
He left to go to college and never came back. San Diego put him on PDOF and
leave for 42 days before separating him on AWOL.

In another example, a student had finished his job training, completed his high
school education, and left San Diego for gainful employment. However, San Diego
put him on PDOF for 54 days before separating him (as a result, he waited an
additional 2 months for his transition allowance7 to start his new life).

None of the absences comprising the 4,796 days met the requirements of the PRH
for PDOF. None of the students were on authorized activities away from San Diego.
PDOF was being used to inappropriately extend student stays at San Diego.

San Diego Management Did Not Monitor Leave

We attributed this lack of compliance with Job Corps requirements to a lack of
management oversight. San Diego management did not adequately monitor student
separation dates, leave, and PDOF. The CTS Department put students on leave or
on PDOF without their request and without management approval. CTS, with
assistance from other departments, then kept the students on leave or PDOF
without management review and without management’s knowledge.

Specifically, San Diego management had not established a position with sufficient
authority and responsibility to ensure compliance with Job Corps requirements. For
example, the Records Supervisor was responsible for overall student accountability
but could not approve or disapprove student leave or PDOF. Instead, student leave
and PDOF status could be approved by up to five other officials. When these
officials inappropriately approved leave or PDOF, there was no one with sufficient
authority to question the approvals.

In fact, when we interviewed San Diego employees, we learned that since no one
was accountable or responsible for ensuring an accurate reporting of the student
separation date, there could be differences of days, weeks, or even months between
the reported separation date and the actual separation date. In our sample,
students were extended from 3 to 140 days.

In addition, CSDC did not properly monitor San Diego’s use of student leave, PDOF,
and separation of students. PRH Chapter 6 requires center operators to perform
annual reviews of center operations. While CSDC did perform annual reviews, the
reviews did not disclose that the lack of management controls allowed the
widespread inappropriate use of leave and PDOF to inflate OBS.



7
 Job Corps provides $750 to students who complete a vocation to help them transition to stable
employment and community living. This is in addition to the daily allowance students earn while
attending Job Corps.

U.S. Department of Labor—Office of Inspector General                                              15
Report Number: 09-05-004-03-370
San Diego Job Corps Center: Student
Attendance and Training Data Overstated

Further, CSDC operates eight other Job Corps centers. According to CSDC
personnel, the annual reviews of these centers generally followed the same steps as
the annual review for San Diego. Therefore, we believe these conditions could exist
at CSDC’s other centers and not have been detected.

OBS Overstatement on a Typical Day

We judgmentally selected 3 days from PY 2003 to determine the number of students
who should have been included in OBS for a typical day at San Diego. We
determined the number of students included in the OBS for these days that were on
questionable leave or PDOF. We considered students to be on questionable leave if
they were in consecutive leave of 7 days or more immediately before separation.


                     Snapshot: Reported OBS vs. Actual OBS
        Date              OBS      Reported      Students on                  OIG
                       Threshold      OBS        Questionable               Estimated
                      (98 percent)                  Leave                  Actual OBS
     7/16/2003            637         634             42                       592
     1/28/2004            637         575             48                       527
     5/11/2004            637         657             27                       630


As can be seen, San Diego’s actual OBS as estimated by OIG was lower than
reported.

Effect of Inflated OBS

The contract with San Diego states that Job Corps may assess liquidated damages
if San Diego keeps students in the OBS inappropriately. Using the $66 per student
day (stipulated in the contract), the OIG statistician has projected the monetary
liquidated damages for inappropriate use of leave and PDOF as shown in the
following table at a 95 percent confidence level. As the table below shows, we
believe liquidated damages could range from a low of $576,847 to a high of
$618,369.




16                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-004-03-370
                                                         San Diego Job Corps Center: Student
                                                      Attendance and Training Data Overstated

                         Potential Liquidated Damages
                                    PY 2003
                             PDOF             Leave               Total
                                        (Projected Range)  (Projected Range)
                                         Low        High    Low         High
        Number of Students       165        163        189     328         354
        Number of Days         4,796      3,944      4,573   8,740       9,369
        Contract Rate         $66              $66                $66
        Total              $316,536 $260,311 $301,833 $576,847 $618,369


In addition, we believe this practice may have a detrimental effect on the number of
students San Diego could be serving. Since San Diego statistics were not accurate
and it appeared OBS was higher than it was, outreach efforts may have been
curtailed or slowed to keep from recruiting more students than could be accepted.
At the very least, students may have been kept waiting to get in to San Diego when
space, in fact, was available. This means that San Diego did not serve as many at-
risk youth as it could have – in direct opposition to Job Corps goals. Also, Job Corps
management may be using this flawed data in management decisions.

Furthermore, students are paid a small daily allowance that they continue to earn
while they are on leave or on PDOF. The students also continue to receive health
care coverage while technically a Job Corps student. There also may be some
liability for separated students health needs while being kept on the records.

Nationwide Action Taken by Job Corps

In response to two earlier OIG reports related to performance measures8, Job Corps
has already begun taking action to ensure performance data reliability at all centers.
To improve system-wide data validation Job Corps has:

    •   initiated updates to the Program Assessment Guide (PAG), which is the
        technical assistance guide for regional office reviews of centers,

    •   required each regional office to conduct mandatory audits of student records
        concurrent with annual center quality assessments,

    •   convened a national performance data reliability workgroup to make
        recommendations for processes to ensure system-wide integrity of
        performance data,




8
 Interim Report – Job Corps Performance Measurement Outcomes, Report No. 09-04-004-03-370,
dated September 30, 2004 and Kittrell Job Corps Center: Manipulation of Student Attendance and
Training Records, Report No. 09-05-001-03-370, dated March 30, 2005.

U.S. Department of Labor—Office of Inspector General                                             17
Report Number: 09-05-004-03-370
San Diego Job Corps Center: Student
Attendance and Training Data Overstated

     •   conducted pilot reviews at selected centers to evaluate performance data
         sampling methodologies recommended by the workgroup, and

     •   issued clarification to the Job Corps community regarding use of AWOL
         status and parameters for reporting present for duty off-center.

Recommendations

The OIG recommends that the Assistant Secretary for Employment and Training
ensure that Job Corps management takes appropriate action to address the
manipulation of student attendance records at San Diego. These actions should
include requiring that Job Corps management:

     1. Monitor San Diego to ensure center management establishes central
        authority and responsibility for center compliance with Job Corps
        requirements for student accountability and separations.

     2. Sample San Diego student attendance records and supporting documentation
        from at least PY 2002 to the present to determine how long the practice of
        inflating OBS has taken place and compute liquidated damages.

     3. Monitor CSDC to ensure student separation reporting and procedures are
        included in their annual review of all CSDC centers.

Agency Response

ETA stated that Job Corps had obtained a Corrective Action Plan (CAP) from the
center operator for San Diego, CSDC. ETA stated that the CAP addresses
enhancements being made to the center’s management structure as well as
corporate oversight and internal review processes to assure data integrity. CSDC
has replaced key center staff including the San Diego Center Director and Deputy
Director, and has instituted other changes in management and operations. CSDC
has newly authorized specific individuals as being responsible for specific functions
at the San Diego center.

CSDC has also established both a center auditing team at San Diego, as well as a
corporate-level internal auditing team to review all CSDC centers. Results of
monthly center audits will be forwarded to the San Francisco Regional Office for
review.

In addition, ETA stated the Office of Job Corps will conduct its own random sample
review of San Diego student attendance records and supporting documentation from
Program Year 2002 to the present, and will extrapolate these findings to determine
the correct amount of reimbursable expenses that should have been made to CSDC.
Upon that determination, the Office of Job Corps will take steps to recover any
overpayments.


18                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-004-03-370
                                                      San Diego Job Corps Center: Student
                                                   Attendance and Training Data Overstated



OIG Conclusion

We concur with the corrective actions proposed by ETA and Job Corps. These
findings are considered resolved but not closed. They will be closed when OIG
receives the determination of the amount of any overpayment.


Objective 2 – Are the following four selected performance measures reliable?

   a.   Student On-Board Strength
   b.   60-day Commitment Rate
   c.   GED/High School Diploma Attainment Rate
   d.   Vocational Completion Rate


Results and Finding

Two of the four selected performance measures we tested -- the 60-Day
Commitment Rate and GED/ High School Diploma Attainment Rate -- were reliable.
We tested statistical samples for these measures as follows:

   •    For the 60-day Commitment Rate we tested 47 of the 650 students reported.
   •    For GED/High School Completion Rate we tested 43 of 258 reported
        students.

We did not find any statistically significant errors.

The other two performance measures, OBS (previously discussed) and Vocational
Completion Rate, were not reliable. The cause and effect of the OBS misstatement
are discussed in the previous section. The Vocational Completion Rate was not
reliable because Training Achievement Records (TARs) did not support that
students achieved proficiency in their vocations.

Vocational Completions Were Overstated

The third measure, Vocational Completion Rate, was not reliable. We tested a
statistical sample of 48 vocational completions from the 768 vocational completions
San Diego reported. We found that San Diego documents did not support 26 of the
48 vocational completions.

The Vocational Completion Rate is the number of students who completed training
for at least one vocation while at San Diego. Vocational completion is determined by
becoming proficient in all tasks set forth on a TAR. Each vocation has its own TAR.



U.S. Department of Labor—Office of Inspector General                                   19
Report Number: 09-05-004-03-370
San Diego Job Corps Center: Student
Attendance and Training Data Overstated

In our sample, TARs were incomplete, with some required tasks not even attempted,
and did not support the necessary proficiency level for students to have completed
the vocation. This mainly occurred because San Diego personnel were not trained
in TAR requirements and management did not monitor TARs for completeness and
proficiency levels. As a result, students may not be properly trained for their
vocations when they graduate from San Diego.

In addition, overstating this performance measure has two monetary impacts. First,
this performance measure is used computing San Diego’s incentive bonus. (See
Exhibit A for an explanation of incentive and bonus payments.) Thus, San Diego
may have been overpaid for its performance. Secondly, students receive $750 for a
vocational completion. Therefore, students were overpaid. Due to the way center
bonuses are computed, we cannot project the total amount overpaid from our
sample.

The following sections discuss these problems in more detail.

TAR Requirements

In testing the Vocational Completion Rate, we examined the TARs. Job Corps uses
the TARs to track students’ progress through their vocational training. The TARs list
the required tasks students must master to complete the vocation. Further, PRH
Appendix 302 specifically states that for vocations taught by the National Training
Contractors, a student must perform all tasks listed on the TAR to complete training
for that vocation. This is required for all vocations.

The TAR also lists the date the task was completed and the proficiency level the
student achieved for each specific task. The vocation instructor assesses each task
performed by rating a student’s proficiency as follows:

                     Rating of 1 = Exposed to task but not proficient.
                     Rating of 2 = Proficient to industry standards.
                     Rating of 3 = Proficient and able to teach others.

The directions for the TAR state that a proficiency rating is to be given whenever a
student performs a task listed on the TAR. The TAR also specifically states that a
student must achieve a proficiency rating of 2 or 3 to pass.

We identified 768 vocational completions reported by San Diego for PY 2003 and
took a statistical sample of 48 to examine. The results are discussed in the following
sections.

TARs Were Incomplete

We found that 13 of 48 (27 percent) students’ TARs did not show the students had
any training or exposure to tasks required to complete that vocation.


20                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-004-03-370
                                                     San Diego Job Corps Center: Student
                                                  Attendance and Training Data Overstated



For example, San Diego claimed one student had completed Automotive Repair.
However, of the 76 tasks on the TAR the student had not been exposed to or trained
in 32 of them. These tasks included removing and replacing brake pads, removing
and replacing batteries, and starting a vehicle using jumper cables.

In another case, the TAR for a student who had completed the Child Day Care
Provider vocation indicated the student had not received training in 43 of 117 tasks.
This student did not receive training in such basic tasks as: (1) demonstrating an
understanding of the state childcare regulations and (2) describing characteristics of
physical abuse, physical neglect, sexual abuse, and emotional maltreatment as
defined by law.

San Diego erroneously claimed vocational completions because San Diego staff
were not properly trained in Job Corps vocational requirements and misunderstood
the need for training in all tasks. San Diego personnel believed the students only
needed to complete 80 percent of the tasks listed on a TAR for San Diego to
complete a vocation. San Diego management informed us that it was their belief
that at one time this was all that was required by Job Corps. Management could not
document the source of their information. Job Corps regional officials were not
aware of any such provision ever existing in the PRH.

Also, no one at San Diego monitored the TARs for completeness or appropriate
proficiency prior to accepting the TAR for vocational completion.

TARs Do Not Show Students Were Proficient

In addition to claiming credit for students who had not been exposed to all tasks, we
found another problem with vocational completions. San Diego claimed credit for
students who had not attained adequate proficiency to complete the vocation. In
fact, 16 of the 48 TARs we sampled showed this lack of proficiency.

As noted earlier, instructors rate each student on the proficiency achieved in each of
the required tasks for a particular vocation. For each task attempted, a student is
rated from 1 (not proficient) to 3 (able to teach others). Each TAR has instructions
that specifically require a minimum rating of 2 for each task to be accepted by the
instructor. However, in 16 of the 48 TARs we examined, San Diego accepted at
least one of the required tasks at less than a passing proficiency (i.e., 1).

In the Child Day Care Provider case discussed earlier, San Diego claimed the
student completed two vocational training programs: Child Day Care Provider and
Information Technology Worker. The TAR, however, for the Information Technology
Worker vocation had most of the tasks rated as 1 (not proficient). Therefore, this
student received credit for completing two vocations when, in fact, the TARs show
she did not complete either.



U.S. Department of Labor—Office of Inspector General                                  21
Report Number: 09-05-004-03-370
San Diego Job Corps Center: Student
Attendance and Training Data Overstated

In the Automotive Repair case noted earlier, the TAR showed the instructor gave the
student a rating of 1 (not proficient) in 15 of the 46 tasks he was exposed to. In total,
this student had a passing proficiency on 31 of the 76 required tasks. These ratings
are in addition to the 32 tasks noted earlier that were not even attempted. Yet, San
Diego reported the student as having successfully completed that vocation.

Despite the instructions on the TAR, San Diego personnel we interviewed did not
understand that students needed to achieve a rating of 2 on each task for San Diego
to consider them completing a vocation. San Diego personnel had varying
interpretations of the TAR requirements. One instructor stated the class she was
teaching was a foundation course, and as a result, the students did not need to
achieve a particular proficiency level. Other center staff stated that it was San Diego
policy to finalize the TAR after a student separated, especially if the student got a
job. In these cases, instructors just marked the vocation complete since the student
had entered employment after leaving.

We also noted that the TARs were not reviewed before being accepted and entered
into the CIS. Therefore, the misunderstandings and errors were not detected.

Consequences of Students Not Being Properly Trained

Inappropriately claiming credit for students completing a vocation has several
potential effects.

First, San Diego may not be adequately training the students in their designated
vocation. This could adversely affect their ability to obtain and retain employment. If
students cannot explain to prospective employers that they have performed some of
the basic tasks required in their vocation, it may be difficult to get a particular job.
Further, if a student cannot perform the basic tasks once they have a job, it may be
difficult to keep the job.

Second, Job Corps management has based decisions on unreliable data. Job
Corps may have made procurement decisions, resource allocation judgments, and
other program decisions based at least in part on San Diego’s high vocation
completion rate. These judgments and decisions may have been different had the
true data been known.

Recommendations

We recommend that the Assistant Secretary for Employment and Training ensure
that Job Corps management takes appropriate action to address the unsupported
vocational completions at San Diego. These actions should include requiring that
Job Corps management:




22                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-004-03-370
                                                     San Diego Job Corps Center: Student
                                                  Attendance and Training Data Overstated

   4. Monitor San Diego to ensure center management establishes controls over
      TARs to ensure the TARs are complete with scores “proficient” or higher
      before claiming vocational completion credit.

   5. Review vocational completions reported by San Diego from at least PY 2003
      to the present to correct the Vocational Completion Rate.

   6. Monitor all CSDC centers to ensure center personnel are adequately trained
      on the TAR requirements.

Agency Response

ETA concurred with our recommendations. In the response to our draft report, ETA
stated that CSDC had outlined numerous steps they will implement to ensure the
integrity of the vocational completions at San Diego. Specifically, the Vocations
Manager has met with all Vocational Instructors and communicated the expectations
and procedures to be utilized in assuring proper TAR completions along with
requiring review and signatory approval by the Vocations Manager or the Career
Development Director to ensure data integrity prior to being entered into CIS.

ETA also stated that the Job Corps would be particularly vigilant in reviewing San
Diego student records pertaining to vocational completion to assure that center staff
is knowledgeable and that PRH requirements are being followed.

ETA agreed that, to the extent possible with records available at the center, Job
Corps will conduct a comprehensive review of San Diego student vocational records
from PY 2003 to the present, and will correct individual records in CIS where
necessary.

Finally, ETA stated that, in their annual center assessments, Job Corps regional
offices will work to ensure that personnel at all CSDC centers are trained on the TAR
requirements.

OIG Conclusion

We agree with ETA’s proposed actions. Recommendations 4 and 6 are considered
resolved and closed. Recommendation 5 is resolved but not closed. It will be
closed upon the completion of Job Corps review of San Diego’s vocational records.




Elliot P. Lewis
June 27, 2005




U.S. Department of Labor—Office of Inspector General                                  23
Report Number: 09-05-004-03-370
San Diego Job Corps Center: Student
Attendance and Training Data Overstated




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




24                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-004-03-370
                                                     San Diego Job Corps Center: Student
                                                  Attendance and Training Data Overstated




Exhibits




U.S. Department of Labor—Office of Inspector General                                  25
Report Number: 09-05-004-03-370
San Diego Job Corps Center: Student
Attendance and Training Data Overstated




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




26                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-004-03-370
                                                            San Diego Job Corps Center: Student
                                                         Attendance and Training Data Overstated

                                            EXHIBIT A


        Reported Performance Outcomes Impact Reimbursable Expenses,
           Incentive and Bonus Payments and Job Corps Supervision

Job Corps has developed a nationwide evaluation process. Staff at each center
enters performance data into Job Corps’ automated systems. Center operators are
then evaluated based on Outcome Measurement System (OMS) performance during
the contract year. Additionally, incentive fees and performance excellence bonuses
paid out to center operators are contingent upon performance as generated by the
OMS system. Each center’s overall performance rating is compared to a National
Performance Range established annually by the Job Corps National Director.
Contractors operating centers that perform within the National Performance Range
are paid an incentive fee in addition to a negotiated base fixed fee (profit). The
amounts paid to contractors as incentive fees are based on where each center’s
overall performance rating falls within the National Performance Range. Better
performing centers earn contractors greater incentive fees. Contractors operating
centers that fall below the National Performance Range are not eligible for incentive
fees. In addition to the incentive fees, contractors whose performance exceeds the
top of the National Performance Range are paid a Performance Excellence Bonus.9

The Center Report Card is a critical performance report used by Job Corps to
assess center performance on a monthly and yearly basis. The OMS provides
performance information regarding students’ achievement of academic and
vocational credentials, initial placements, and continued placements at 6- and 12-
months following initial placement. Based on our testing, the OIG has questioned
the reliability of one of these nine performance outcomes reported on San Diego’s
OMS-10 for PY 2003, namely the vocational completion rate.10

The Center Quality Report Card is another critical performance report used by Job
Corps to assess center performance. The Center Quality Report Card is the Job
Corps report used to assess the quality and services of programs offered at all Job
Corps centers nationwide. The Quality Report Card supplements the Center Report
Card by providing information on aspects of center life that otherwise would not be a

9
  The OIG was unable to calculate incentive fees and bonuses paid to the contractor as a result of
data manipulation because we were unable to project our statistical samples to the population for the
first year of the current contract (10/1/03-9/30/04). Our statistical samples were based on the total
population for PY 2003.
10
  Our testing of the vocational completion rate was based on vocational programs completed as
reported on the Job Corps Vocational Training Report Card for the Center. The Center Report Card
(OMS-10) reports similar information. On the Center Report Card, the center receives credit for each
student completing a vocational program. On the Vocational Training Report Card, the center
receives credit for each vocational program completed. Additional credit is given if a student
completes more than one vocational program.


U.S. Department of Labor—Office of Inspector General                                               27
Report Number: 09-05-004-03-370
San Diego Job Corps Center: Student
Attendance and Training Data Overstated

systematic part of the Job Corps accountability system. This report card is also
used in procurement decisions. One area that this measurement system focuses on
is a Center’s ability to operate at full capacity. This is referred to as the OBS.
Centers operating at less than full capacity may be required to lower their budget for
reimbursable expenses.

Finally, San Diego’s projection of student termination dates and its management of
the Weekly Termination Rate (WTR) may have prevented the San Francisco
Regional Office from identifying enrollment issues at San Diego and, thereby,
avoiding closer supervision. The WTR is the weekly occurrence of student
terminations. Regional offices carefully monitor WTR for signs of potential
enrollment issues. For example, a high WTR (approximately 4.5 percent and above)
may indicate that students are unhappy with the services provided at a center and
are leaving prematurely. Other reasons for a high WTR include high incidents of
positive drug tests, family commitments, and illness.




28                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-004-03-370
                                                     San Diego Job Corps Center: Student
                                                  Attendance and Training Data Overstated

                                                                             EXHIBIT B


             OIG Calculations for CSDC Maximum Potential Refund
                   to the Government-Liquidated Damages

This exhibit provides our calculations for CSDC’s $618,369 maximum potential
refund to the Government. Our calculations were based on the formula provided in
CSDC’s contract to operate San Diego. Section G.6 of the contract, titled
“Liquidated Damages for Failure to Comply with Regulations for Separating
Students”, states:
   The contractor agrees to comply with the current requirements for separating
   students from the program. The contractor agrees further that the refundable
   cost to the Government for each day a student is retained (counted in the
   reported on-board strength) in violation of Job Corps requirements is
   determined by dividing the “annual student cost” (“cost per student year”), as
   stated in the contract, by 365.
The contract states that the estimated average annual student cost was $24,086.
We used this amount to calculate the refundable cost to the Government for each
day a student was on inappropriate leave or PDOF and accounted for on the OBS.
We divided the $24,086 by 365, which gave us $66 per day. We then multiplied the
$66 by the total number of days students were on inappropriate leave or PDOF and
accounted for in the OBS to arrive at the $618,369 maximum potential refund
amount. The following chart shows the ranges of days and potential liquidated
damages.

                      Potential Liquidated Damages
                                 PY 2003
                       PDOF             Leave               Total
                                  (Projected Range)  (Projected Range)
                                   Low        High    Low         High
   Number of Students      165        163        189     328         354
   Number of Days        4,796      3,944      4,573   8,740       9,369
   Contract Rate        $66              $66                $66
   Total              $316,536 $260,311 $301,833 $576,847 $618,369

The $618,369 represents the estimated maximum potential refund based on our
projection of our statistical sample of inappropriate leave and 100 percent review of
PDOF.




U.S. Department of Labor—Office of Inspector General                                  29
Report Number: 09-05-004-03-370
San Diego Job Corps Center: Student
Attendance and Training Data Overstated




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




30                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-004-03-370
                                                     San Diego Job Corps Center: Student
                                                  Attendance and Training Data Overstated

                                       EXHIBIT C




                         EXTENDED STUDENT RESIGNATIONS



                                                Number of Days San Diego
Sample Date Student Center Reported Resignation
                                                 Overstated the Student’s
Number Left Center  Separation Date   Letter
                                                     Length of Stay
                                     Undated?


   219       5/13/2004          6/3/2004               Y                    21
   35       10/23/2003         11/3/2003               Y                    11
    1         3/9/2004          3/19/2004              Y                    10
   114        8/4/2003          8/7/2003               Y                     3
   132      10/13/2003         12/1/2003               Y                    49
   218        5/1/2004          5/14/2004              Y                    13
   166        5/1/2004          6/1/2004               Y                    32
   220        4/9/2004          5/7/2004               Y                    28
   176        2/6/2004          3/9/2004               Y                    33
   86        1/14/2004          2/3/2004               Y                    20
   202      12/18/2003          1/5/2004               Y                    18
   214       4/27/2004          6/1/2004               Y                    35
   117      12/11/2003         12/18/2003              Y                     7
   167       12/1/2003          2/2/2004               Y                    64
   118        1/9/2004          3/2/2004               Y                    53
   225       5/10/2004          6/1/2004               Y                    22




U.S. Department of Labor—Office of Inspector General                                  31
Report Number: 09-05-004-03-370
San Diego Job Corps Center: Student
Attendance and Training Data Overstated




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




32                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-004-03-370
                                                          San Diego Job Corps Center: Student
                                                       Attendance and Training Data Overstated




Appendices




U.S. Department of Labor—Office of Inspector General                                       33
Report Number: 09-05-004-03-370
San Diego Job Corps Center: Student
Attendance and Training Data Overstated




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




34                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 09-05-004-03-370
                                                      San Diego Job Corps Center: Student
                                                  Attendance And Training Data Overstated

                                                                          APPENDIX A
BACKGROUND

Job Corps is a national residential training and employment program administered
by the Employment and Training Administration within the Department of Labor to
address the multiple barriers to employment faced by at-risk youth throughout the
United States. Job Corps was originally established by the Economic Opportunity
Act of 1964; current authorization for the program is Title I, Subtitle C, of the
Workforce Investment Act of 1998.

Job Corps provides comprehensive career development services to students
including academic, vocational, social, and independent living skills, career
readiness training, and support services. The unique combination of services
provided through Job Corps is intended to prepare youth to obtain and hold gainful
employment, pursue further education or training, or satisfy entrance requirements
for career in the Armed Forces.

In May 2002, Job Corps began implementing performance-based contracts. These
contracts tie option years, incentive fees, and bonuses directly to contractor
performance. Job Corps’ San Francisco Regional Office is responsible for selecting
and supervising San Diego’s contracted center operator.

The San Diego Job Corps Center was managed by CSDC. CSDC managed nine
centers nationwide. For PY 2003, San Diego had a student capacity of 650 and an
overall ranking of 36th among the 118 Job Corps centers. San Diego had an annual
budget of about $16 million.




U.S. Department of Labor—Office of Inspector General                                  35
Report Number: 09-05-00x-03-370
San Diego Job Corps Center: Student
Attendance and Training Data Overstated




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




36                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-004-03-370
                                                     San Diego Job Corps Center: Student
                                                  Attendance and Training Data Overstated

                          APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA


Objectives

We initiated the audit to determine the merits of a hotline complaint dated March 28,
2003. This audit was also one in a series of planned audits to assess the reliability
of performance measures reported by Job Corps center operators. As such, we
performed additional tests of selected performance data unrelated to the complaint.

Our audit objectives were to answer the following specific questions:

   1. Is the allegation that San Diego personnel manipulated student resignation
      dates valid?

   2. Are the following four selected performance measures reliable?

          a. Student On-Board Strength
          b. 60-day Commitment Rate
          c. General Education Development (GED)/High School Diploma
             Attainment Rate
          d. Vocational Completion Rate

This audit was also one in a series of planned audits assessing Job Corps’
processes for ensuring the reliability of performance outcomes reported by center
operators and career transition services providers. As such, we determined whether
reported performance for measures unrelated to the hotline complaint was reliable.

Scope

We considered the hotline complaint dated March 28, 2003, and discussions with
the complainant. We also tested the reliability of four performance outcomes
reported by San Diego as part of our broader audit of Job Corps performance data
reliability. Our audit scope at San Diego focused on performance outcomes
reported by San Diego for PY 2003 (from July 1, 2003, through June 30, 2004).

Our testing of internal controls focused only on those controls related to our audit
objectives of determining whether the allegations could be substantiated and
whether the four performance measures noted above were reliable. Our audit work
at San Diego did not include a review of the internal controls used by the San Diego
operator to ensure compliance with all Job Corps policies and requirements. Our
review of internal controls was not intended to form an opinion on the adequacy of
management controls overall, and we do not render such an opinion.




U.S. Department of Labor—Office of Inspector General                                  37
Report Number: 09-05-004-03-370
San Diego Job Corps Center: Student
Attendance and Training Data Overstated

We issued an interim report (Interim Report - Job Corps Performance Measurement
Outcomes, Report No. 09-04-004-03-370), on September 31, 2004. That report
detailed control weaknesses in a major component of Job Corps’ data validation
system and recommended immediate corrective actions. Job Corps has taken steps
to correct the weaknesses identified.

We conducted audit fieldwork between December 2004 and May 2005, at the San
Diego Job Corps Center in San Diego, California.

We conducted this audit in accordance with Government Auditing Standards issued
by the Comptroller General of the United States, and we performed such tests as we
considered necessary to satisfy our audit objectives.

Methodology

To assess the merits of the allegation we received regarding the manipulation of
student separation dates and selected performance measures at San Diego, we
included both statistical and judgmental sampling in our sampling methodology. For
the statistical samples, we used 90 and 95 percent confidence levels.

We identified 225 of the 717 students that separated during PY 2003 that had
consecutive leave of seven or more days just before separation. We selected a
random sample of 105 student files from the 225 to determine whether San Diego
managers complied with Job Corps policy (PRH 6.1 R2a) prohibiting the granting of
leave as a means of improperly postponing a student’s separation date. Specifically,
we reviewed the files to determine whether (1) attendance and leave patterns were
consistent with the allegations made by the hotline complainant, and (2) AWOL and
leave were supported by documentation required by Job Corps policy (PRH 6.1) and
San Diego operating procedures.

Because PDOF status was not included in the Job Corps electronic database for the
first nine months of PY 2003, we manually identified 246 students on PDOF not
included in the 225 students in the earlier test. We tested 100 percent of these 246
students for appropriate PDOF usage under the PRH and San Diego requirements.

We statistically sampled 48 of 768 reported vocational program completions. We
performed tests to determine whether San Diego adequately supported the reported
program completions with vocational TARs as required by Job Corps (PRH 3.13).

We statistically sampled 43 of San Diego’s 258 students reported as attaining a
GED certificate or high school diploma during PY 2003 to determine whether the
GED/High School Diploma attainment credits were supported by documentation as
required by Job Corps policy (PRH 3.11).




38                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-004-03-370
                                                     San Diego Job Corps Center: Student
                                                  Attendance and Training Data Overstated

We statistically sampled 47 of the 650 students reported as enrolled for 60 days or
longer and performed tests to determine whether student’s length of stay was
supported by documentation required by Job Corps policy (PRH 6.1).

Criteria
In addressing the audit objectives, we reviewed relevant Federal laws, regulations
and guidance. These included the following:

   1.   Workforce Investment Act of 1998
   2.   Government Performance and Results Act of 1993
   3.   Job Corps PRH (Various dates)
   4.   San Diego Job Corps Center 2003 Contract
   5.   San Diego Job Corps Center Standard Operating Procedures, and
   6.   United States Code, Title 29.




U.S. Department of Labor—Office of Inspector General                                  39
Report Number: 09-05-004-03-370
San Diego Job Corps Center: Student
Attendance and Training Data Overstated




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




40                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-004-03-370
                                                     San Diego Job Corps Center: Student
                                                  Attendance and Training Data Overstated

                        APPENDIX C
ACRONYMS AND ABBREVIATIONS


AWOL      Absent Without Leave
CSDC      Career Systems Development Corporation
CIS       Center Information System
CTS       Career Transition Services
CY        Calendar Year
ETA       Employment and Training Administration
GED       General Educational Development
HSD       High School Diploma
OBS       On-Board Strength
OIG       Office of Inspector General
OMS       Outcome Measurement System
PAG       Program Assessment Guide
PDOF      Present for Duty Off-Center
PRH       Policy and Requirements Handbook
PY        Program Year
TAR       Training Achievement Record
WTR       Weekly Termination Rate




U.S. Department of Labor—Office of Inspector General                                  41
Report Number: 09-05-004-03-370
San Diego Job Corps Center: Student
Attendance and Training Data Overstated




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




42                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-004-03-370
                                                     San Diego Job Corps Center: Student
                                                  Attendance and Training Data Overstated

                         APPENDIX D
AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                  43
Report Number: 09-05-004-03-370
San Diego Job Corps Center: Student
Attendance and Training Data Overstated




44                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-004-03-370
                                                     San Diego Job Corps Center: Student
                                                  Attendance and Training Data Overstated




U.S. Department of Labor—Office of Inspector General                                  45
Report Number: 09-05-004-03-370
San Diego Job Corps Center: Student
Attendance and Training Data Overstated




46                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-004-03-370
                                                     San Diego Job Corps Center: Student
                                                  Attendance and Training Data Overstated




U.S. Department of Labor—Office of Inspector General                                  47
Report Number: 09-05-004-03-370
San Diego Job Corps Center: Student
Attendance and Training Data Overstated




48                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-004-03-370
